American Recovery and Reinvestment Act:
Infrastructure Improvements Achieved but
            Less than Planned



        Audit Report No. 908-2010

              June 22, 2011




 NATIONAL RAILROAD PASSENGER CORPORATION
       OFFICE OF INSPECTOR GENERAL
              10 G STREET, N.E.
           WASHINGTON, D.C. 20002



                    .
           Amtrak                            June 22, 2011
            Office of
            Inspector General                American Recovery and Reinvestment Act: Infrastructure
                                             Improvements Achieved but Less than Planned
Summary of Report: OIG-908-2010
                                             What OIG Found
Why OIG Performed This Audit
                                             Although ARRA funding enabled Amtrak’s Engineering Department to make some
The American Recovery and                    infrastructure improvements, they will be fewer in number than originally planned
Reinvestment Act of 2009 (ARRA)              and budgeted. Between March 2009 and November 2010, ARRA funding was
authorized the Federal Railroad              reprogrammed nine times, resulting in the Engineering Department removing 34
Administration (FRA) to provide $1.3         projects, leaving 37 assigned to Jacobs. Specifically, 21 projects (with an estimated
billion to Amtrak through a grant            budget of $55.7 million) were canceled, and 13 projects (with an estimated budget of
agreement. This agreement allocated          $19.5 million) were transferred to the capital budget. These changes occurred
about $850 million for capital projects      primarily because the original grant language drove project selection toward projects
for the repair, rehabilitation, or upgrade   that could be completed by February 17, 2011, and the substitution of higher priority
of railroad assets or infrastructure, and    projects by Amtrak senior management and the Engineering Department. Amtrak
about $450 million for capital security      spent about $1.4 million on canceled Jacobs’s projects.
projects, including life safety
improvements. FRA retained about $4.2                          Changes to Jacobs Projects (dollars in millions)
million for program oversight, and we
were allocated $5 million for that                        Category                                      Projects       Funding
purpose. The grant agreement required                     Initial scope                                       71        $434.1
all projects to be completed by February                  Projects canceled                                 (21)         (57.7)
17, 2011, and originally required                         Projects transferred to capital budget            (13)         (19.5)
Amtrak to take “extraordinary                             Projects with increased costs                       ---        126.7
measures” before requesting a waiver to                   Final scope                                         37        $483.6
extend project completion beyond the                      Source: OIG analysis of Amtrak Engineering and Finance Department data
deadline.
                                             Amtrak Engineering reported that 10 of the 37 projects were complete and that $355.8
Amtrak’s Engineering Department              million of the $483.6 million in funding for Jacobs projects (74 percent) had been
received funds under the security and        spent as of February 28, 2011. Based on our May 2010 recommendation, the grant
non-security portion of the grant            agreement was amended in August 2010 to eliminate the requirement to take
agreement. It contracted with Jacobs         “extraordinary measures” before requesting a waiver to extend a project’s completion
Projects Management Company for              beyond February 17, 2011. The Engineering Department requested and received a
design and construction management           waiver from FRA to extend the deadline from 2 to 7 months for 27 projects; as a
services. Jacobs managed 37 projects,        result, about $126.9 million was put to better use because Amtrak did not have to
with a budget of $483.6 million.             take wasteful “extraordinary measures” to complete projects by the deadline.
                                             Completion dates were extended due to delays in obtaining permits and regulatory
Our objective was to review ARRA-            approvals, unforeseen site conditions, and construction schedules conflicting with train
funded, Jacobs-managed projects to           operations.
determine the extent to which planned
infrastructure improvements were                Reported Status of Jacobs-Managed Projects as of February 28, 2011
completed                                                               (dollars in millions)

                                                                                        Authorized          Reported         Remaining
What OIG Recommends                                 Category              Projects         budget       Expenditures
                                                                                                                     a
                                                                                                                                Funds

We recommend that the Chief Engineer                Projects completed            10          $ 71.3                $ 70.4        $   0.9
give canceled ARRA projects priority                Waiver to extend
when making future infrastructure                   completion                    27           412.3              285.4            126.9
improvement project selection                        Total                        37          $483.6             $355.8           $127.8
                                                a
decisions, and provide written                   Expenditures do not include project costs in the work in process account as of February 28,
justification to support the funding of         2011.
higher priority projects.                       Source: OIG analysis of Amtrak Engineering and Finance Department data

In commenting on a draft of this report,
the Chief Engineer stated that he intends
to give priority to canceled projects.
      NATIONAL RAILROAD
      PASSENGER CORPOARATION
                                         Office of Inspector General



Memorandum
To:           Frank Vacca, Chief Engineer



From:         David R. Warren
              Assistant Inspector General, Audits

Date:         June 22, 2011

Subject:      American Recovery and Reinvestment Act: Infrastructure Improvements
              Achieved but Less than Planned (Report 908-2010)

Enclosed is our report entitled American Recovery and Reinvestment Act: Infrastructure
Improvements Achieved but Less than Planned (Report 908-2010). The objective of this audit
was to review American Recovery and Reinvestment-funded, Jacobs-managed projects
to determine the extent to which planned infrastructure improvements were achieved.

In commenting on a draft of this report, Amtrak’s Chief Engineer stated that he intends
to give priority to deferred/canceled projects, but noted that these projects will compete
for funding with other projects during the selection process. In a draft of this report, we
recommended that the Chief Engineer give priority to canceled ARRA projects when
making future infrastructure improvement-project-selection decisions. However, given
the comment that canceled projects will compete for funding with other projects, our
final recommendation is that the Chief Engineer give priority to canceled ARRA
projects when making future infrastructure improvement project selection decisions,
and prepare a written justification to support the funding of higher priority projects.
Therefore, we request that you provide a response to our final recommendation within
30 days of the date of this report.

Your response to our draft report can be found in Appendix I.
Thank you for your cooperation during the course of this audit. If you have any questions,
please contact Michael Kennedy, Senior Director, at 202-906-4308
(michael.kennedy@amtrakoig.gov), or me at (202) 906-4742 (david.warren@amtrakoig.gov).


cc:    DJ Stadtler, Chief Financial Officer
       William Herrmann, Managing Deputy General Counsel
       Art Misiaszek, ARRA Program Director
       Jessica Scritchfield, Senior Director Internal Controls/Audits

Attachment
                         TABLE OF CONTENTS



INTRODUCTION                                                     1

  Objective                                                      2

FINDING AND RECOMMENDATION                                       2

   Infrastructure Improvements Achieved but Less than Planned    2

CONCLUSION                                                       8

RECOMMENDATION                                                   8

MANAGEMENT COMMENTS AND OIG ANALYSIS                             8




Appendixes

  I Comments from Amtrak’s Chief Engineer                       9

 II Scope and Methodology                                       10

 III ARRA-Funded Jacobs Projects                                12

 IV Abbreviations                                               14

 V OIG Team Members                                             15
                                Amtrak Office of Inspector General
                          American Recovery and Reinvestment Act:
                Infrastructure Improvements Achieved but Less than Planned
                              Report No. 908-2010, June 22, 2011



INTRODUCTION

On February 17, 2009, the President signed the American Recovery and Reinvestment
Act (ARRA) to preserve and create jobs and promote economic recovery, and to invest
in transportation and other infrastructure to provide long-term benefits. The Recovery
Act appropriated $1.3 billion to Amtrak for capital investment. Amtrak received the
ARRA funds through a grant agreement with the Federal Railroad Administration
(FRA). The agreement required Amtrak to allocate $850 million to projects to rebuild
and modernize infrastructure and equipment, and $450 million for security and life
safety projects.1 Initially, approximately $847 million of ARRA funds was allocated to
the Engineering Department and the remaining $443 million was allocated to
Mechanical, Technology, Transportation, and Police departments. This report addresses
the $483.6 million in funding allocated to the Engineering Department that was used on
projects managed by Jacobs Project Management Company.2

Under the grant agreement, all projects were to be completed no later than February 17,
2011. The grant agreement also required Amtrak to take “extraordinary measures”
before requesting a waiver to extend a project completion date. In May 2010 we
reported that this requirement may have the unintended consequence of encouraging
Amtrak to take actions that increase the risk of waste and inefficiency.3 Since the
legislation that governed the grant agreement did not require extraordinary measures,
we recommended that Amtrak request that FRA amend the agreement to allow Amtrak
to apply for a waiver in cases in which reasonable measures had failed to ensure project
completion by the grant deadline. Amtrak management agreed and in August 2010,
FRA amended the grant agreement waiver provision to eliminate the extraordinary
measures requirement. As discussed later, waivers were approved by FRA for 27
Jacobs-managed projects.4




1 FRA retained approximately $4.2 million for program oversight, and the Amtrak Office of Inspector
General was allocated $5 million.
2 The remaining funds allocated to the Engineering Department were used on projects in which the work

was done by Amtrak labor or other contractors.
3 Assessment of Project Risks Associated with Key Engineering Projects (Report No. 912-2010, May 14, 2010).

4 Amtrak requested—and FRA approved—waivers for 59 other ARRA projects.



                                                     1
                                Amtrak Office of Inspector General
                          American Recovery and Reinvestment Act:
                Infrastructure Improvements Achieved but Less than Planned
                              Report No. 908-2010, June 22, 2011

Background

Amtrak’s Engineering and Procurement departments created the ARRA Program
Implementation Team to oversee implementation of the ARRA-funded projects. The
team is led by two Amtrak senior program directors and supported by engineering staff
and contractors. To help implement the projects, Amtrak entered into a program
management agreement with Jacobs Project Management Company on August 17, 2009,
for construction management services and the procurement of design/build services. On
construction management projects, Jacobs provides only construction management
services, and Amtrak provides or contracts elsewhere for project design and
construction. On design/build projects, Jacobs provides preliminary design,
procurement, and construction management services. As of February 28, 2011, Jacobs
was managing 37 projects with a budget of $483.6 million. See Appendix III for a list of
the Jacobs-managed projects.


Objective

Our objective was to review ARRA-funded, Jacobs-managed projects to determine the
extent to which planned infrastructure improvements were achieved. This is the third in
a series of reports on Amtrak’s ARRA program. In May 2010 we reported on the risks
associated with implementing nine key engineering projects.5 This month we reported
on Police and Security Department ARRA-funded projects.6


FINDING AND RECOMMENDATION


Infrastructure Improvements Achieved but Less than Planned

Although ARRA funding enabled Amtrak’s Engineering Department to make some
infrastructure improvements, they were fewer in number than originally planned and
budgeted. The original list of projects was developed in a short time frame and the
project cost estimates were order-of-magnitude estimates. These estimates, along with
the substitution of higher priority projects by Amtrak senior management and the

5Report No. 912-2010, May 14, 2010.
6American Recovery and Reinvestment Act: Fewer Security Improvements than Anticipated Will be Made and
Majority of Projects Are Not Complete (Report No. 914-2010, June 16, 2011).

                                                    2
                             Amtrak Office of Inspector General
                       American Recovery and Reinvestment Act:
             Infrastructure Improvements Achieved but Less than Planned
                           Report No. 908-2010, June 22, 2011

Engineering Department, contributed to the reprogramming of ARRA funding nine
times between March 2009 and November 2010. Consequently, only 37 of the 71
projects assigned to Jacobs are still under ARRA. The other 34 projects were either
canceled or the funding was transferred from ARRA to Amtrak’s capital budget.
Amtrak spent $1.4 million on the canceled projects.

Amtrak’s Engineering Department reported that 10 of the 37 Jacobs-managed projects
have been completed. The department requested and received waivers from FRA to
extend the completion dates from 2 to 7 months for the remaining 27 projects. Project
completion dates were extended because of delays in obtaining permits, unforeseen site
conditions, and construction schedules that conflicted with train operations.



Reprogramming of Funds Reduced Number of Jacobs-Managed Projects

Jacobs was assigned 71 projects. However, 21 projects—with a budget of approximately
$55.7 million—were canceled, and 13 projects with a budget of approximately $19.5
million were transferred from ARRA to Amtrak’s capital budget (see Table 1).

                   Table 1: Jacobs Projects That Were Canceled or
                              Had Funding Transferred

                                                                   Budget
               Category                                 Projects    ($000)
               Projects canceled                              21     $57.7
               Projects transferred to Amtrak
               capital budget                                13      19.5
                Total                                        34     $77.2
              Source: OIG analysis of Amtrak data


In April and June 2010, Amtrak management requested and the Amtrak Board of
Directors and FRA approved reprogramming of ARRA funds that canceled 21 Jacobs
projects. According to Engineering and Finance department officials, these projects
were canceled for the following reasons:

   Ten projects with an estimated budget of $22.9 million were canceled and the funds
   were reprogrammed for the overhaul of passenger cars. The overhaul work had
   been planned in anticipation of receiving additional funds from Congress. However,
   this funding was not forthcoming. Amtrak management assigned a high priority to

                                                    3
                                    Amtrak Office of Inspector General
                              American Recovery and Reinvestment Act:
                    Infrastructure Improvements Achieved but Less than Planned
                                  Report No. 908-2010, June 22, 2011

       the overhaul work and decided to reprogram some ARRA funds that had been
       allocated to the Engineering Department to fund the passenger car overhaul work.

       Nine projects with an estimated budget of $29.2 million were canceled because
       Amtrak’s Engineering Department did not believe the projects could be completed
       by the February 17, 2011, deadline. For example, a $6-million project to provide
       emergency back-up power in New York tunnels was canceled because space for the
       project-required generators was not available in the tunnels.

       Two projects with an estimated budget of $5.6 million were canceled because
       contract bids were significantly higher than cost estimates. For example, the cost
       estimate for one project to paint the Hellgate Bridge in New York City was $5
       million, but the contractor’s bid was $12 million.7

Amtrak spent $1.4 million on the canceled projects. For example, approximately
$189,000 was spent for design and solicitation work on the Hellgate Bridge painting
project, and approximately $96,000 was spent for preliminary design on a project for
improvements to the Ivy City Service and Inspection Building in Washington, D.C. The
Finance Department transferred $1.4 million in ARRA costs to Amtrak’s general
operating funds, so no ARRA funds were wasted. However, the $1.4 million in general
operating funds is at risk of being wasted if these projects are not completed.



Projects Transferred to Capital Budget

In June, July, and November 2010, the Amtrak Board of Directors and FRA approved
reprogramming of ARRA funds that transferred 13 Jacobs-managed projects with a
budget of $19.5 million from ARRA funding to Amtrak’s capital budget. Twelve of the
13 projects were to make facilities more accessible to passengers with disabilities. These
projects were transferred primarily because of higher priority needs identified by the
Engineering Department and because contractor bids were higher than estimated
budgets for some projects, as seen in the following examples.

       Improvements, Mid-Atlantic Stations. This project involved making improvements at
       nine stations in Pennsylvania and Maryland. The estimated budget was $1.7 million.

7
    Requests for proposals were sent to eight vendors but only one responded by the bid due date.


                                                           4
                               Amtrak Office of Inspector General
                         American Recovery and Reinvestment Act:
               Infrastructure Improvements Achieved but Less than Planned
                             Report No. 908-2010, June 22, 2011

   However, bids ranged from $5.2 to $5.5 million. As a result, in July and November
   2010 the Amtrak Board of Directors approved transferring funds for these
   improvements from ARRA to the capital budget.

   Mid-Atlantic Division—Concrete Tie Replacement. This project involved replacing
   failing concrete ties in the Mid-Atlantic Division. The Engineering Department
   decided this was a high priority and added it to ARRA in April 2010. The scope of
   the project increased and additional funding was added in the June and November
   2010 reprogramming. The funding for this $51-million project was provided by these
   transferred projects as well as other projects.



Projects Were Not Completed by Original Grant Deadline

Amtrak Engineering data show that 10 Jacobs-managed projects with an estimated
budget of $71.3 million were completed by February 17, 2011. Between October 2010
and February 2011, Amtrak’s Engineering Department requested and received waivers
from FRA to extend the estimated completion date from 2 to 7 months for the remaining
27 projects that were not 100-percent complete. As mentioned, project completion dates
were extended because of delays in obtaining permits and regulatory approvals, labor
disputes, unforeseen site conditions, and construction schedules that conflicted with
train operations.

As seen in Table 2, Amtrak Engineering reports spending $355.8 million (74 percent of
the budget) for Jacobs-managed projects as of February 28, 2011.


       Table 2: Status of Jacobs-Managed ARRA Projects as of February 28, 2011
                                  (dollars in millions)
                                                  Authorized    Reported Remaining
          Project category           Projects        Budget Expendituresa   Funds
          Completed                        10         $ 71.3      $ 70.4    $ 0.9
          Waiver to extend
          deadline                           27            412.3              285.4            126.9
          Total                              37           $483.6             $355.8           $127.8
      a
       The expenditures do not include project costs that were in the Work in Process account as of February 28,
      2011.
      Source: OIG analysis of Amtrak Engineering and Finance Department data




                                                      5
                              Amtrak Office of Inspector General
                        American Recovery and Reinvestment Act:
              Infrastructure Improvements Achieved but Less than Planned
                            Report No. 908-2010, June 22, 2011

The original grant agreement between FRA and Amtrak did not define when a project is
considered complete for purposes of complying with the ARRA deadline of February
17, 2011. In January 2011, FRA and Amtrak agreed that projects would be considered
complete if the Engineering Department had issued a certificate of substantial
completion or Amtrak had taken possession of the project and formal turnover of all
contract deliverables and submissions due at contract closeout is proceeding
satisfactorily. This definition resulted in six Jacobs projects being reported as complete.
For example, the Engineering Department signed a substantial completion certificate on
January 21, 2011, on a project to paint the Thames River Bridge in Connecticut,
indicating that work has been completed, so that Amtrak can use the bridge, and any
additional remaining work can be performed without interference with Amtrak
operations. The final completion certificate was signed on March 24, 2011. Likewise, the
Engineering Department signed a substantial completion certificate on December 15,
2010, on a project to rehabilitate piles under the approach to the Pelham Bay Bridge in
New York. Amtrak has use of the bridge even though work was not scheduled to be
completed until March 31, 2011.

Finally, the scope of the project to replace the River Road Bridge in Connecticut was
significantly reduced to allow the project to be funded by ARRA. The Engineering
Department’s original plan was to purchase materials and install a new bridge
superstructure with ARRA funds. In December 2010, the Engineering Department
reduced the project scope to include only material purchases. Engineering officials
decided to reduce the scope because there was insufficient track time available to
complete the project by the ARRA deadline. The repair work will now be funded under
Amtrak’s capital budget and is estimated to be completed by the end of 2012.



Waivers Received to Extend Project Completion Dates

Between October 2010 and February 2011, the Engineering Department requested and
received waivers from FRA to extend the completion date for 27 projects that could not
be completed by the grant deadline. As a result, $126.9 million in funding will be put to
better use. Waivers were approved by FRA due to delays in obtaining regulatory
approval, unforeseen site conditions, and issues that arose during construction. Some
examples:




                                            6
                              Amtrak Office of Inspector General
                        American Recovery and Reinvestment Act:
              Infrastructure Improvements Achieved but Less than Planned
                            Report No. 908-2010, June 22, 2011

   Upgrade Atglen and Susquehanna Branch Transmission Line, Pennsylvania. The start of
   construction was delayed from May 3 to October 25, 2010, due to the time required
   to comply with the requirements of the National Environmental Policy Act and to
   obtain approvals under the National Historic Preservation Act from the Department
   of the Interior. As a result, the scheduled completion date was extended 7 months, to
   September 30, 2011. The project has a budget of $23.5 million; $9.4 million had been
   spent as of February 28, 2011.

   Switch Heater Replacement/Remote Control, Chicago Yard. This project was delayed by a
   21-day labor strike by building trades and utility constraints, with concurrent
   unforeseen soil conditions and groundwater contamination. As a result, the
   scheduled completion date was extended 4 months, to June 10, 2011. This project has
   a budget of $29.9 million; $18.1 million had been spent through February 28, 2011.

   Replace East and West Harbor Bridges, Connecticut. These two projects were delayed
   because the original contractor has been terminated. Amtrak’s Procurement
   Department awarded a new contract to complete the original scope of work. The
   Engineering Department estimates that the projects will now be completed in
   December 2011. These two projects have a budget of $32.2 million and $7.7 million
   had been spent through February 28, 2011.

Waivers were requested and received for six projects that involved work at 79 locations.
Engineering officials stated that certificates indicating substantial completion had been
obtained for 35 (44 percent) of the locations; however, a project substantial completion
certificate would not be obtained until work at all project locations was completed.

Waivers were also requested and received for three projects that Engineering assigned
to Jacobs in April 2010 that provided insufficient time to complete the projects prior to
the ARRA deadline date. A project to mitigate falling ballast at Hellgate Bridge and
another project to make public safety improvements at Washington Bridge in the
District of Columbia were added to avoid potential fines or consent decrees. A third
project was added to improve fencing and access around the John Street Baltimore and
Potomac tunnel in Maryland. Although construction on these three projects began
nearly as planned, there was insufficient time to complete them by the deadline.
Amtrak requested and received waivers to extend these projects from 4 to 8 months.




                                            7
                              Amtrak Office of Inspector General
                        American Recovery and Reinvestment Act:
              Infrastructure Improvements Achieved but Less than Planned
                            Report No. 908-2010, June 22, 2011



CONCLUSION

ARRA funding enabled the Amtrak Engineering Department to make some security
and infrastructure improvements, but fewer improvements will be made than originally
planned and budgeted. The initial focus on projects that could be completed by the
ARRA grant deadline, the order of magnitude project estimates, and the changes in
priorities resulted in significant changes to projects managed by Jacobs. Amtrak senior
management decided toward the end of the grant agreement period to request waivers
to extend the estimated completion for projects that were not going to be finished by the
grant deadline. As a result, some funds are at risk of being wasted to the extent that
designs for canceled projects are not used in the future.



RECOMMENDATION

To avoid wasting the $1.4 million of Amtrak operating funds spent on canceled projects,
we recommend that the Chief Engineer give priority to canceled ARRA projects when
making future infrastructure improvement project selection decisions, and prepare
written justification to support the funding of higher priority projects.



MANAGEMENT COMMENTS AND OIG ANALYSIS

In commenting on a draft of this report, Amtrak’s Chief Engineer stated that he intends
to give priority to deferred/canceled projects, but noted that these projects will compete
for funding with other projects during the selection process. In that draft report, we
recommended that the Chief Engineer give priority to canceled ARRA projects when
making future infrastructure improvement project selection decisions. However, given
the comment that canceled projects will compete for funding with other projects, our
final recommendations is that the Chief Engineer give priority to canceled ARRA
projects when making future infrastructure-improvement project selection decisions,
and prepare a written justification to support the funding of higher priority projects.
Technical comments were also provided and are included in this report where
appropriate. Amtrak’s comments are reprinted in Appendix I.



                                            8
                Amtrak Office of Inspector General
          American Recovery and Reinvestment Act:
Infrastructure Improvements Achieved but Less than Planned
              Report No. 908-2010, June 22, 2011


                       Appendix I

COMMENTS FROM AMTRAK’S CHIEF ENGINEER




                            9
                             Amtrak Office of Inspector General
                       American Recovery and Reinvestment Act:
             Infrastructure Improvements Achieved but Less than Planned
                           Report No. 908-2010, June 22, 2011

                                     Appendix II

                         SCOPE AND METHODOLOGY

This audit covers Jacobs-managed, ARRA-funded projects. There were 37 Jacobs-
managed projects, with an estimated budget of $483.6 million. See Appendix III for a
complete list of projects. We performed this audit from August 2010 through April
2011, in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform our work to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on the
objectives. We believe that the evidence obtained during this audit provides a
reasonable basis for our findings and conclusions based on our objectives.

To determine the extent to which planned infrastructure improvements were achieved,
we analyzed changes to the ARRA-funded, Jacobs-managed projects from the time the
grant agreement was signed in March 2009 through February 2011. We interviewed
officials in Amtrak’s Engineering and Finance departments to identify reasons that
projects were canceled, as well as reasons that project budgets increased or decreased.
We also obtained data from the Engineering Department on funds spent on canceled
projects. We reviewed the status reports for each project, along with documentation
regarding Amtrak’s waiver requests to extend project completion dates. We also
interviewed project managers to identify reasons that projects could not be completed
by the ARRA deadline. Finally, we obtained data on actual expenditures by project as of
February 28, 2011, from the Finance Department.


Use of Computer-Processed Data

We utilized computer-processed reports to obtain budget and expenditure data on all
Jacobs-managed projects. These data represent the actual expenditures as reported to
FRA. We did not validate these numbers but relied on the data based on a general and
application review of financial systems performance as part of the financial statement
audit performed by Amtrak’s external auditors.




                                          10
                              Amtrak Office of Inspector General
                        American Recovery and Reinvestment Act:
              Infrastructure Improvements Achieved but Less than Planned
                            Report No. 908-2010, June 22, 2011

Internal Controls

We reviewed Amtrak Engineering’s internal controls related to project planning and
implementation by determining the status of all projects and the process for making
changes to project scope.


Prior Coverage

Fewer Security Improvements than Anticipated Will Be Made and Majority of Projects Are Not
Complete (Report 914-2010, June 16, 2011).

Assessment of Project Risks Associated with Key Engineering Projects (Report No. 912-2010,
May 14, 2010).

Opportunities and Challenges Facing Amtrak in FY 2011 and Beyond. Statement of Ted
Alves, Inspector General, National Railroad Passenger Corporation, before the
Subcommittee on Transportation, Housing and Urban Development, and Related
Agencies, Committee on Appropriations, United States Senate, April 29, 2010.

Rocla Concrete Ties (Report No. 218-2005, March 20, 2008).




                                            11
                                 Amtrak Office of Inspector General
                           American Recovery and Reinvestment Act:
                 Infrastructure Improvements Achieved but Less than Planned
                               Report No. 908-2010, June 22, 2011


                                                  Appendix III

                             ARRA-FUNDED JACOBS PROJECTS

            The following table shows the status of Jacobs-managed projects as of
                                    February 28, 2011.

                                                      Budget     Expenditures      Completed       Waiver Approved
                                                                                              a
Project                                                ($000)     as of 2/28/11   by Deadline     to Extend Deadline

Construction management projects

Fiber Optic Cable - Michigan Line                      $6,888           $6,664         X

Replace Superstructure, Union Street Bridge, PA        $4,296           $3,841         X

Replace Superstructure, Wood Street Bridge, PA         $3,337           $3,225         X

Replace Superstructure, River Road Bridge, CT          $2,484           $1,692         X

Concrete Pile Rehab, Pelham Bay, NY                   $12,462          $12,481         X

Paint Fixed Span, Thames River Bridge, CT             $25,500          $27,952         X

Metuchen Frequency Converter, NY Division             $14,000          $13,998         X

Construct Maintenance Facility, Hialeah, FL           $35,483          $21,286                            X

Construct Maintenance Facility, Los Angeles           $35,470          $38,332                            X
Ivy City Substation and Transmission Line
Improvement, DC                                       $25,059          $27,147                            X

ITCS Installation Wayside, Michigan Line              $25,023          $22,155                            X

Transmission Line Replacement, PA                     $23,524           $9,361                            X

Miamicock Bridge Replacement, CT                      $20,000          $17,681                            X

West Harbor Bridge Replacement, CT                    $16,514           $3,992                            X

East Harbor Bridge Replacement, CT                    $15,805           $3,700                            X

 Subtotal, Construction Management                   $265,845        $213, 507         7                  8

                                                                                                   continued




                                                       12
                                       Amtrak Office of Inspector General
                                 American Recovery and Reinvestment Act:
                       Infrastructure Improvements Achieved but Less than Planned
                                     Report No. 908-2010, June 22, 2011
                                                                                       b
                                                                        Expenditures
                                                             Budget      as of 2/28/11      Completed       Waiver Approved
                                                                                                       a
                                                              ($000)            ($000)     by Deadline     to Extend Deadline
Design/Build Projects
Fire Alarm Upgrade, South Hampton Street Yard, MA             $1,226                $83          X

Station Upgrades, New York Division                             $910              $319           X

Station Upgrades, New England Division                          $206              $157           X
Demolition of Abandoned Structures, Washington to
Boston                                                        $2,848             $2,758                            X

Canopy Restoration, Platform Upgrades, Tampa                    $793              $233                             X

Facility Upgrades, Central Division                          $23,009           $14,015                             X

Fall Protection Upgrades, IN, IL                              $3,927             $2,775                            X
Switch Heater, Replace Remote Control, Chicago
Yard                                                         $29,912           $18,051                             X

                                          c
Track Rehabilitation, Central Division                       $31,044           $26,873                             X


Service and Inspection Building Expansion, Chicago           $12,709             $6,001                            X

Electrical Distribution Upgrade, Chicago Yard                 $1,294             $1,088                            X
                                   th      th
Compressed Air Improvements,14 and 16 Streets,
Chicago Yard                                                 $22,310           $12,523                             X

Locomotive Shop, Roof Replacement, Chicago                    $9,005             $3,759                            X
Public Safety Improvement, Washington Terminal
           c
Bridge, DC                                                    $3,804              $940                             X

Falling Ballast Hazard Mitigation, Hellgate Bridge, NY       $15,700             $3,347                            X
                                              c
Mobility First, Non–Northeast Corridor                        $8,756             $8,645                            X

Inventory Security Improvements                              $20,111           $19,156                             X
                                                  c
Facility Upgrades, New England Division                       $7,962             $6,279                            X
                                      c
Station Upgrades, Western Division                            $1,794             $3,064                            X
                                      c
Station Upgrades, Central Division                            $2,725              $864                             X

Drop Table Building, South Hampton Street Yard ,MA           $16,171           $10,592                             X
Fencing and Access Improvements, B & P John St.
Opening, MD                                                   $1,544              $807                             X
    Subtotal, Design/Build                                  $217,760          $142,329           3                19
     TOTAL                                                  $483,605          $355,836          10                27
Source: OIG Analysis of Engineering and Finance Department data
a
  Includes projects completed and substantially complete.
b
  The actual costs for the design/build projects do not include work in process as of February 28, 2011.
C
  Project involved work at multiple locations.

                                                               13
                       Amtrak Office of Inspector General
                 American Recovery and Reinvestment Act:
       Infrastructure Improvements Achieved but Less than Planned
                     Report No. 908-2010, June 22, 2011



                              Appendix IV

                         ABBREVIATIONS


ARRA         American Recovery and Reinvestment Act

FRA          Federal Railroad Administration

OIG          Office of Inspector General




                                   14
                            Amtrak Office of Inspector General
                      American Recovery and Reinvestment Act:
            Infrastructure Improvements Achieved but Less than Planned
                          Report No. 908-2010, June 22, 2011


                                   Appendix V

                           OIG TEAM MEMBERS


David R. Warren         Assistant Inspector General, Audits

Michael Kennedy         Senior Director

John Caporale           Principal Auditor

Raymond Depp            Principal Auditor

Michael P. Fruitman     Principal Communications Officer

Denize Hammond          Director

Maryellen Moran         Principal Auditor




                                          15
                             Amtrak Office of Inspector General
                       American Recovery and Reinvestment Act:
             Infrastructure Improvements Achieved but Less than Planned
                           Report No. 908-2010, June 22, 2011


                OIG MISSION AND CONTACT INFORMATION

Amtrak OIG’s Mission         Amtrak OIG’s mission is to

                                conduct and supervise independent and objective
                                 audits, inspections, evaluations, and investigations
                                 relating to Amtrak programs and operations;

                                promote economy, effectiveness, and efficiency within
                                 Amtrak;

                                prevent and detect fraud, waste, and abuse in Amtrak's
                                 programs and operations;

                                review security and safety policies and programs; and

                                review and make recommendations regarding existing
                                 and proposed legislation and regulations relating to
                                 Amtrak's programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov
Reports and Testimony
To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:      www.amtrakoig.gov/hotline
                             Phone:    800-468-5469
Congressional Affairs &      E. Bret Coulson
Public Relations             Congressional Affairs & Public Relations
                             Mail     Amtrak OIG
                                      10 G Street, N.E., 3W-300
                                      Washington, D.C. 20002
                             Phone    202-906-4134
                             Email    bret.coulson@amtrakoig.gov




                                           16
